Offics,' ali;
"lNsprtTOR~,QENE-RAl




                       September 1993
                          Date Issued
      INSPECfOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, D.C. 20436



September 27, 1993


        1.1VIlW OF   usrre- S   PII.SONMIt. - PAYROll 'UNctIONS AMD ActIVITIES



Approximately $30 million, 68% of the USITC's Fiscal Year (FY)              1992
appropriation, was dedicated to personnel compensation and benefits, reflecting
the labor intensive nature of the Commission's mission. The objectives of this
audit were to evaluate the USITC policies applicable to personnel - payroll
functions and activities and the way in which these policies are implemented in
order to identify any areas of non-compliance with Federal Laws and regulations,
improvements to internal controls, or increased efficiency.

This review was conducted by Urbach Kahn & Werlin PC in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The results of their review are presented as an attachment to this
report.

We are pleased to report that the findings identified in this review indicate
that significant policy and procedural changes were adopted throughout the
Commission to correct the internal control weaknesses identified in an audit
report that we issued in September 1990. After conducting a comprehensive review
of the Commission's personnel management functions and activities, we reported
significant weaknesses in the payroll related functions, including that
timesheets were not properly supported and signed; overtime was frequently not
properly documented, authorized or reported; and compensatory time and credit
hours were not properly recorded or controlled.

During this review, we found that relevant guidance had been developed on payroll
related functions and employees were substantially complying with the policies
and procedures.    The findings and recommendations are mostly refinements to
policy and procedures. We know that implementing the changes was a difficult
process and wish to acknowledge the efforts of the Office of Finance and Budget
(OFB) and Personnel.
The findings and recommendations presented on pages 6 through 13 of the report
are as follows:

      Personnel management specialists and their assistants should have limited
      supplemental responsibilities.

      OFB staff should periodically test compliance with time and attendance
      policies.

      Timekeepers should not have direct access to            General   Services
      Administration National Payroll Center personnel.

      Timekeepers who do not meet the exception criteria should not maintain
      their own time and attendance records.

      OFB staff should periodically test compliance with compensatory time
      policies and Administration should clarify the existing policy directive.

Other matters and suggestions are presented on pages 14 and 15 of the report.

Compensatory time was the one area in which the most problems were identified.
Although dramatically improved from the last audit, the need for clarification
of guidance and increased monitoring for compliance was apparent. Additional
guidance is needed on justifications, the maximum pay limitation, paYments to
terminated employees, and use of annual leave when the employee has a
compensatory time balance. Increased monitoring is needed to ensure that offices
properly record compensatory time earned, estimated times are not claimed, and
time and attendance records are properly reconciled.

The Director of Administration concurred with the recommendations and
suggestions.   A summary of the Director's comments is presented after each
finding and other matter on pages 6 through 15 of the report. The Director's
comments are presented in their entirety as an appendix to the report.




                                   j=fA~~r
                                     Inspector General




                                        2
                                        CONTENTS




     INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT


     SECTION I:     BACKGROUND                                                   2


     SECTION II:    OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS              3-5


     SECTION III:   FINDINGS AND RECOMMENDATIONS                               6 - 13


     SECTION IV:    OTHER MATTERS AND SUGGESTIONS                              14 - 15



     Appendix -        Memorandum from the Director of Administration, dated
                       August 30, 1993, on Draft Report




UK
&W   ~~~---=~~                                 ~~               ~=~"""'                  iiiiiiiiiiiiiii__
                          INDEPENDENTACCOUNTANT~
               AGREED-UPON PROCEDURES REPORT




UK
&W   ~~~iiiiiiiiiiiiiii    ~~iiiiiiiiiiiiiii~~~~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
                                   INDEPENDENT ACCOUNTANT'S
                                 AGREED-UPON PROCEDURES REPORT




     United States International Trade Commission
     Office of Inspector General



     We have performed certain agreed-upon procedures related to the personnel-payroll functions and
     activities within the United States International Trade Commission (USITC). The procedures for
     the review, as identified in Section II of this report, were agreed to by USITC's Office of Inspector
     General and were performed solely to assist USITC in evaluating and improving their personnel-
     payroll functions and activities. This report is intended solely for the information of USITC. This
     restriction is not intended to limit the distribution of this report, which is a matter of public record.

     The objectives of this engagement included the performance of agreed-upon procedures by Urbach
     Kahn & Werlin PC (UKW) to determine findings with respect to the following:

     •     The adequacy and effectiveness of internal control procedures (including automated
           systems),

     •     The adequacy and accuracy of personnel-payroll systems,

     •     Whether USITe's policies and procedures are in compliance with Federal laws and
           regulations, and

     •     The efficiency and effectiveness of the personnel-payroll systems.

     Our engagement findings are included in Sections III and IV of this report.




     Washington, DC
     June 18, 1993




                                                                 -1-
                       1200 Seventeenth Street NW, Washington, DC 20036 (202) 296-2020 FAX (202) 223-8488
                                      Worldwide Coverage through Urbach Hacker Young International
                                               SECTION I
                                            BACKGROUND




UK
&W   iiiiiiiiiiiiiiiiiiiiiiiiiiiiii--=~~~~~~~=-   iiiiiiiiiiiii=~~   iiiiiiij;;;
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL.. PAVROLL FUNCTIONS AND ACTIVITIES
     BACKGROUND




     Background     The United States International Trade Commission (USITC) is an
                    independent agency of the United States Government created by an act of
                    Congress. USITC conducts investigations and reports findings relating to
                    international trade and economic policy matters on behalf of both the
                    Congress and President.

                    USITC has a full-time, permanent staff of approximately 450 individuals,
                    with budget appropriations for fiscal years 1992 and 1993 of $42,434,000
                    and $44,852,000, respectively. Approximately 65 percent of the budget
                    represents personnel compensation and benefits.

     Personnel      USITC's Office of Personnel (PN) currently has a staff of eight who are
                    responsible for managing the staffing and training needs of USITC. The
                    primary functions of the Office of Personnel, according to the U.S. Office
                    of Personnel Management's Federal Personnel Manual, include:

                    •      Planning, organizing, directing, coordinating and controlling all
                           personnel management programs conducted within USITC.

                    •      Determining that personnel management programs support USITC's
                           missions, meet the needs of management and employees, and are
                           consistent with the basic goals of Federal personnel management.

                    •      Insuring that personnel management is carried out effectively and
                           efficiently in accord with applicable laws, executive orders,
                           presidential policies, regulations, and standards.

                    •      Implementing positively and vigorously the principle of selection and
                           promotion on the basis of ability, merit, and fitness in staffing
                           USITC.

                    PN maintains official files on all active USITC personnel which include
                    hiring, promotions, raises, awards, training and benefit information.
                    USITC's personnel policies and procedures have been developed in
                    accordance with the Federal Personnel Manual and other Federal laws and
                    regulations. The Office of Personnel also uses the Department of Energy's
                    (DOE) PayPers System as an automated database system to assist PN in
                    preparing personnel forms and reports, and in complying with the data
                    requirements of the US Office of Personnel Management.

     Payroll       .The payroll function within USITC is the responsibility of the Office of
                    Finance and Budget (OFB). Timekeeper activities and the handling of payroil
                    records are monitored by the Chief of Finance. USITC uses the General
                    Services Administration's (GSA) National Payroll Center in Kansas City,
                    Missouri for the processing of their payroll. USITC provides GSA with time
                    and attendance (T&A) and payroll records from which GSA generates
                    payroll checks, pay and leave statements, master payroll reports and
                    general ledger accounting information.         USITC's T&A policies and
                    procedures closely follow guidance outlined in GSA's Timekeeper
                    Handbook.


UK                                          -2-
&W
                             SECTION II
                    OBJECTIVES, SCOPE,
         METHODOLOGY AND CONCLUSIONS




UK
&W   ~   ~~~~~        ~==~~~iIiiiiiiiiiiiii==~   __
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS



     Objectives     UKW was engaged to perform agreed-upon procedures related to the
                    personnel-payroll functions and activities within USITC. The objectives of
                    this engagement included the performance of agreed-upon procedures
                    UKW to determine findings with respect to the following:

                    •     The adequacy and effectiveness of internal control procedures
                          (including automated systems),

                    •     The adequacy and accuracy of payroll systems,

                    •     Whether USITC's policies and procedures are in compliance with
                          Federal laws and regulations, and

                    •     The efficiency and effectiveness of the personnel-payroll systems.


     Scope          UKW conducted its review from June 1 to June 18, 1993 at the offices
                    of USITC in Washington, DC. UKW's engagement staff met with
                    numerous USITC employees with responsibilities over the personnel-
                    payroll functions and activities, reviewed USITC policies and directives,
                    and tested personnel-payroll transactions and records from fiscal year
                    1993.

     Methodology    The general procedures performed by UKW were as follows:

                    •     Document an understanding of USITC's accounting and reporting
                          processes and the primary aspects of the personnel-payroll control
                          environment by observing and reviewing USITC's existing
                          procedures and processing routines.

                    •     Assess the significance and degree of risk for key systems of
                          USITC's personnel-payroll internal controls.

                    •     Assess the computer related controls at USITC, DOE, and GSA.

                    •     Review USlTC's compliance with those laws and regulations that
                          govern personnel-payroll internal control, accounting and
                          management systems.

                    •     Conduct a survey of USITC staff to document their understanding
                          of the systems of internal control for personnel-payroll functions and
                          activities.

                    •     Review USITC personnel policies.

                    •     Review of the segregation of functional responsibilities.




UK                                         -3 -
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL..PAYROLL FUNCTIONS AND ACTIVITIES
     OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS



                    •   Interview accounting, management, and other personnel who are
                        assigned responsibilities for ensuring adherence to internal control
                        structure policies and procedures for personnel-payroll.

                    •   Review USITC's compliance with            US   Office   of    Personnel
                        Management reporting requirements.

                    •   Observe personnel in the performance of their assigned personnel-
                        payroll duties,

                    •   Select a sample of employee pay records from payroll periods during
                        the 1993 fiscal year (to include new hires and terminated
                        employees) and perform the following procedures:

                        ,/   Verify the calculation of gross pay,

                        ,/   Verify the calculation of pay adjustments               under   the
                             Performance Management Recognition System,

                        ,/   Verify quality step increases,

                        ,/   Verify the calculation of deductions,

                        ,/   Verify the calculation of net pay,

                        ,/   Verify that the salary rate and grades were properly approved,

                        ,/   Verify that income tax withholdings were proper,

                        ,/   Verify that employees approved voluntary deductions, and

                        ,/   Trace payroll data to the Consolidated Payroll Report provided
                             by the GSA National Payroll Center.

                    •   Determine whether USITC complied with Federal laws and
                        regulations, and the adequacy of the approval process for:

                             Hiring and processing new employees,

                             Managing employee benefits, including leave,

                             Effecting within-grade increases,

                             Effecting career promotions,

                             Developing performance plans and evaluations as they relate
                             to merit pay, quality step increases, and performance and
                             incentive awards, and



UK                                      - 4-

&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS



                          ,/   Effecting terminations.

                    •     Select a sample of time and attendance forms and verify:

                          ,/   Forms conform to GSA standards,

                          ,/   Forms have proper supervisory approval,

                          ,/   Overtime and leave are properly coded, supported and
                               authorized, and

                          ,/   Overtime and leave agree to annual attendance records and the
                               Consolidated Payroll Reports.

                    •     Review a sample of employee annual attendance records to verify
                          proper certification, reconciliations, and ceiling limitations.

                    •     Select a sample of employees with compensatory time balances and
                          ensure employees earn and use compensatory time in accordance
                          with USITC policy.

                    •     Verify and review supporting documentation for performance
                          awards.

                    •     Test payroll report reconciliations to the general ledger.

                    •     Perform analytical procedures.

                    •     Review areas where significant accounting problems exist.

                    •     Review, where applicable, actions taken in response to the internal
                          control structure recommendations contained in previous personnel-
                          payroll reports.

     Conclusions    The results of our procedures did not disclose any significant instances of
                    non-compliance with federal laws and regulations, or USITC policies and
                    procedures.       We did, however, identify certain findings and
                    recommendations, and other matters, which are discussed under sections
                    III and IV of this report.




UK                                         -5-
&W
                       SECTION III
                    FINDINGS AND
                RECOMMENDA TIONS




UK
&W   ~~   ~   ~~~~~~   ......~~~~ .........
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



     1)   PERSONNEL MANAGEMENT SPECIALISTS AND THEIR ASSISTANTS
          SHOULD HA VE LIMITED SUPPLEMENTAL RESPONSIBILITIES.

          Condition

          We noted that personnel management specialists are occasionally appointed Acting Director
          in the absence of the Director. We also noted that one of the personnel management
          specialist assistants is authorized as an alternate timekeeper. This authorization allows her
          to pick up employee pay checks from the Office of Finance and Budget as well as timekeep.
          Personnel management specialists and their assistants are the only employees with access
          to the DOE PayPers System for the generation of SF-50s, thus performance of both of these
          functions provides for an inadequate segregation of duties.

          Criteria

          The fourth specific standard in GAO's Standards for Internal Controls in the Federal
          Government states "Key duties and responsibilities in authorizing, processing, recording, and
          reviewing transactions should be separated among individuals."

          Cause

          USITC staff are aware of this issue and, in this regard, believe that other system controls
          are in place which mitigate the potential problems which may result from an inadequate
          segregation of duties.

          Effect

          Personnel management specialists and their assistants have the ability to generate, authorize
          and access payroll documents, a condition which increases the risk of unauthorized
          transactions not being identified during the normal course of business.

          Recommendstion

          We recommend that USITC implement procedures which provide for an adequate
          segregation of duties for those occasions when personnel management specialist is Acting
          Director or an alternate timekeeper.

          Management's response

          nAGREE. This recommendation will be implemented by issuance of a •delegation of
          authority' memo to staff which will address the segregation of duties for those occasions
          when personnel management specialist is Acting Director or an alternate timekeeper. n




UK                                                 -6-
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



     2)   OFB STAFF SHOULD PERIODICALLY TEST COMPUANCE WITH TIME AND
          A TTENDANCE POLICIES"

          Condition

          In connection with the testing of time and attendance procedures, we noted the following
          exceptions to USITC's policies:

          •     30 of 50 annual attendance records tested were missing a supervisory signature for
                the semi-annual review.

          •     20 of 50 time and attendance records required a Request for Leave form. However,
                for 7 of these records the form was not in the T&A file.

          •     Of the 50 annual attendance records tested, 13 had compensatory time balances.
                However, 7 of the 13 used annual leave prior to using the compensatory time
                available. (See finding 5 for additional information.)

          •     4 of 50 annual attendance records tested had discrepancies reconciling to the
                Consolidated Payroll Report.

          •     1 of 50 time and attendance records (SF 3575) tested did not have the leave hours
                taken indicated on the form for less than a full day.

          •     1 of the 2 employees in our sample with overtime exceeded the recommended limit
                for hours worked without a meal break. (See finding 5 for additional information.)

          •      1 of 50 time and attendance records tested was missing a supervisor's signature.

          •     1 of 50 time and attendance records tested was approved by a supervisor who did not
                have an authorization card on file (SF-123).

          •      1 of 50 time and attendance records tested did not have a schedule for use of
                 restored leave.

          •     1 of 50 time and attendance records tested was not tracking compensatory time for
                an employee with a compensatory time balance. (See finding 5 for additional
                information.)

          Criteria

          USITC Directive 2201.1 - Time. Attendance and Payroll Services Handbook and Directive
          4304.1 - Overtime and Compensatory Time outline required procedures and policies related
          to time and anendance and other payroll areas. Although OFB has a policy for periodic
          (annual) testing of time and attendance records, they apparently did not perform these tests
          due to staff limitations.




UK                                                 -7.
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



        CBuse

        It would appear that staffing limitations has precluded OFB from conducting reviews of
        actual practices by timekeepers to ensure proper compliance with established USITC
        policies.

        Effect

        While it does not appear that these discrepancies have resulted in any additional cost to
        USITC, payroll, leave and compensatory time balances may be incorrectly reported.
        Inadequate reviews by supervisors may not ensure adequate compliance with laws and
        policies.

        RecommendBtion

        We recommend that OFB periodically perform internal testing procedures of T&A records
        (without regard to quarterly timekeeper meetings) to ensure records are in compliance with
        USITC' s policies and procedures.

        In addition, we believe USITC may improve compliance by providing a general checklist for
        problem areas which should be reviewed by timekeepers before timesheets are submitted
        to OFB.

        MBnBgtlment's response

        ..AGREE. OFB will provide a general checklist for timekeepers to use as they complete
        biweekly timesheets. OFB will continually review and revise the Review of Annual
        Attendance Record form, completed during timekeeper reviews, to include new problem
        ares. In addition, as time permits, OFB will increase timekeeper reviews from once to twice
        annually. OFB will also review all problem areas during quarterly timekeeper meetings."




UK
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



     3)   TIMEKEEPERS SHOULD NOT HAVE DIRECT ACCESS TO GSA NATIONAL
          PA YROLL CENTER PERSONNEL.

          Condition

          In connection with our review and survey of eleven timekeepers within USITC, we noted
          that at least one timekeeper has contacted GSA National Payroll center staff to make
          adjustments to certain employees' pay and leave data, thus confirming an inadequate
          segregation of duties.


          Criteria

          GAO's Standards for Internal Controls in the Federal Government requires that "key duties
          and responsibilities in authorizing, processing, recording, and reviewing transactions" be
          separated. The noted condition circumvents this separation of duties.

          Cause

          Timekeepers were likely not aware of the inherent weaknesses in this process.

          Effect

          Transactions and authorizations may be inappropriately overridden and timekeeping practices
          could develop inconsistencies.

          Recommendation

          USITC should discuss this situation with both the timekeepers and GSA and implement
          enhanced procedures to ensure that GSA does not process any payroll adjustments without
          the consent of specific individuals at OFB.

          Management's response

          "AGREE. OFB discussed this situation with GSA and in order not to cause a possible delay
          in a salary payment, GSA prefers not to be limited to whom they can talk to in order to clear
          up a current payroll processing problem. However, OFB has implemented procedures with
          GSA where GSA will not process payroll adjustments without OFB (or the Office of
          Personnel where appropriate) approval. These procedures will be reviewed and enhanced
          as required, and discussed during quarterly timekeeper meetings."




UK                                                 -9 -
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



     4)   TIMEKEEPERS WHO DO NOT MEET THE EXCEPTION CRITERIA SHOULD
          NOT MAINTAIN THEIR OWN TIME AND ATTENDANCE RECORDS.
          Condition

          In connection with our review and survey of eleven timekeepers within USITC, we noted
          that four timekeepers maintain their own time and attendance records. Two of the four
          timekeepers are responsible for in excess of 20 employees' time and attendance records
          and, as such, do not meet the exception criteria which allows timekeepers to maintain their
          own time and attendance records. The two other timekeepers do meet the exception
          criteria.

          Criteria

          Title 6 of the GAO's Policy and Procedures Manual for Guidance of Federal Agencies states,
          in part, that employees may maintain their own time and attendance records in certain
          situations.

          USITC Administrative Order 92-03 provides additional authority for certain timekeepers to
          maintain their own timesheets under written authorization by the agency head. Furthermore,
          it states that designated and alternate time and attendance clerks are to maintain each
          others' time and attendance forms on a routine basis. In the event that one of the
          timekeepers is absent, the other timekeeper can keep his/her own time and attendance
          records during that absence. However, these requirements only apply in offices of 10 or
          fewer permanent staff positions.

          Cause

          Both timekeepers questioned who do not meet the exception criteria indicated that they
          have not been informed that they are not to maintain their own time and attendance records.

          Effect

          Since the supervisor signing and authorizing the time and attendance records has many
          employees under his/her direction, the supervisor may not be aware of the timekeepers' time
          and leave taken. Therefore, the time and attendance records have a significantly greater
          potential for abuse.

          Recommendation

          Alternate timekeepers should be used to maintain the time and attendance records of the
          designated timekeeper. In the event that the alternate timekeeper is absent, the designated
          timekeeper can maintain his/her own time and attendance records during that absence.

          Management's response

          n AGREE. OFB will include reminders in this area on the general checklist for timekeepers

          and in the Review of Annual Attendance Record form, and will also include it as a topic at
          all quarterly timekeeper meetings. The timekeepers who were improperly keeping their own
          time are now authorized or are no longer doing it."



UK                                               - 10 -
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



     5)   OFB STAFF SHOULD PERIODICALL Y TEST COMPLIANCE WITH
          COMPENSATORY TIME POLICIESANDADMINISTRATION SHOULD CLARIFY
          THE EXISTING POUCY DIRECTIVE.

          Condition

          In connection with our testing of 25 selected employees, we noted the following exceptions:

          •    8 of 25 attendance records with compensatory time had used both annual and
               compensatory time in the period tested. Of the 8, we noted 5 which used annual
               leave prior to using the compensatory time available. USITC directive 4304. 1 outlines
               policy relating to "use or lose" annual leave. In this regard, the Director of Personnel
               intended the Directive to apply to the last three pay periods of the year. We noted,
               however, that the interpretation of when ' use or lose' annual leave actually occurs
               varied within U5fTC. (In our testing, we interpreted 'properly scheduled use or lose'
               annual leave to only apply to the last three pay periods of the year. In addition, we
               interpreted, as policy, that restored leave may be used before compensatory time
               should be included). See finding 2 for additional instances.

          •    1 clerical error made in a March 1993 attendance record, and related to compensatory
               time, was noted. The result was an inflated compensatory time balance of 16 hours.
               Had the timekeeper made the proper reconciliations at any time between March of
               1993 and June of 1993, the error would have been detected. (This was corrected by
               the timekeeper during the engagement.)

          •    1 overtime authorization of 7 tested had no explanation for the need for overtime.

          •    U51TC directive 4304.1 states "For productivity, safety and health reasons, managers
               should limit overtime (whether for payor compensatory time off) to not more than 4
               hours on workdays and 8 hours on non-workdays, unless extenuating circumstances
               dictate otherwise. Also, employees should be reminded to take meal breaks during
               lengthy periods of overtime. The following are instances noted in which employees
                                            II


               exceeded the recommended limit for compensatory hours worked. See finding 2 for
               related issues.

                      1 instance was noted in which an employee worked 10.7 compensatory hours,
                      resulting in an 18.7 hour workday with one half hour break. In addition, we
                      noted the time and attendance was not coded correctly on the timesheet. The
                      incorrect coding, however, had no effect on the number of hours.

                      1 instance was noted in which an employee worked 18.2 hours, resulting in
                      10.2 compensatory hours.

                      13 instances were noted in which employees worked nine hours (or more) on
                      non-workdays.

                      8 instances were noted in which employees worked five compensatory hours
                      (or more) on workdays, resulting in 13 hour (or more) workdays.

UK                                                - ,1-
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



              In connection with the above compensatory time issues, the information on the time
              records precluded an accurate determination as to whether or not meal breaks were
              taken and/or encouraged in accordance with policy.

         •    USITC does not have an established policy regarding the non-payment of
              compensatory time to terminated employees. USITC should establish this policy to
              ensure the consistent application of such benefits, and this policy should be
              considered for a revised directive on overtime and compensatory time. In FY 1993,
              the Director of Administration sought guidance from the General Counsel on whether
              agency policy on compensatory time could be changed to provide that employees
              would not receive payment for any compensatory time balances remaining at the time
              they leave the agency. The General Counsel advised the Director that she had doubts
              that such a plan, if adopted, would withstand a challenge from adversely affected
              employees and, as such, suggested that he request an opinion from the Comptroller
              General before he recommended that the Commission adopt such a policy. We believe
              there is little, if any, difference in this proposed change in policy and the existing
              carryover limit at the end of the year and, accordingly, believe that such a change
              could be adopted.

        •     USITC appears to have inconsistent practices regarding the handling of compensatory
              time limited by the maximum pay limitation. The overtime and compensatory time
              directive should be amended to indicate that compensatory time is limited based on
              employees' current pay level and, in addition, that lost compensatory time cannot be
              "restored" at a later date.

        •     Other issues concerning amended timesheets and overtime justifications, as reported
              in 'Other Matters' 5 and 6 (pages 14 and 15 of this report), also related to approving
              and recording compensatory time.

        Except for those instances noted in Finding 2 and above, compensatory time was properly
        approved and reported and in general, ITC complied with their policies regarding sick leave
        and credit hours. We note, however, that the number of exceptions noted above indicate
        that further corrective actions are required in order to ensure full compliance with applicable
        policy and directives. Nonetheless, we noted that there was no one who had compensatory
        time in excess of 50 hours carried from one leave year to the next.

        Criteria

        USITC Directive 4304.1 - Overtime and Compensatory Time outlines required procedures
        and policies related to overtime and compensatory time. The attributes tested in our
        samples are required under USITC policies.

        With regard to compensatory time, the Directive 4304.1 currently reads:

              "Earned compensatory time must be used before annual leave is used, with one
              exception: 'properly scheduled use or lose' annual leave must be used prior to earned
              compensatory time".



UK                                               - 12 -
&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     FINDINGS AND RECOMMENDATIONS



        Cause

        Reviews of actual practices by timekeepers have not been performed on a regular basis to
        ensure proper compliance with established USITC policies. In addition, USITC Directive
        4304.1 11a. may not have been interpreted as intended.

        Effect

        In at least one case, the compensatory time balance was inflated. Other cases have
        indicated that the annual leave balance and the compensatory time balance were not correct.

        Recommendation

        We recommend that the recommendations for finding 2 also be extended to compensatory
        time. In addition, USITC should amend USITC Directive 4304.1 11 a. to clarify the definition
        of 'properly scheduled use or lose' annual leave.

        The Directive will also need to be amended to incorporate a policy regarding the payment
        of compensatory time to terminated employees as well as the limitation of compensatory
        time based on current pay level.

        Management's response

        "AGREE. OFB will provide a general checklist for timekeepers to use as they complete
        biweekly timesheets and continually review and revise the Review of Annual Attendance
        Record form to include new problem areas. OFB will also review all problem areas during
        quarterly timekeeper meetings. USITC Directive 4304. 1 on overtime and compensatory time
        will be reviewed and revised as required."




UK                                              - 13 -
&W
                                      SECTION IV
                                  OTHER MATTERS
                                AND SUGGESTIONS




UK
&W   -=--~:iiiiiiiiiiiiii~~~   ~~~"""'~~~~~~
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     OTHER MATTERS AND SUGGESTIONS



     Our review also identified the following suggestions or other instances non-compliance which we
     did not consider significant to the operations of USITC:

     1)   Personnel management evaluation system-The Office of Personnel is currently in the
          process of establishing a formal personnel management evaluation system for performing
          internal reviews of personnel policies and procedures. Although lack of guidance from the
          US Office of Personnel Management has apparently delayed the development of this system,
          we believe USITC should continue their effort and begin implementation as soon as possible.

          "Response: AGREE. The Office of Personnel is continuing to develop evaluation criteria and
          expects to complete one formal review by the end of the year.   II




     2)   PrivIlCY Act Notice-15 of 49 official personnel folders tested did not have a Privacy Act
          Notice, apparently due to the age of the folder. FPM Supplement 293-31 states that offices
          should "affix to the front panel of each folder (SF 66) printed before January 1981 in their
          custody and to each folder received from the NPRC, a Standard Form 66-B, Official
          Personnel Folder Safeguarding Provisions Label. The label summarizes requirements for
          protecting the privacy of the contents of folders and is to be used on all such OPF's."

          "Response: AGREE. A stock of SF-66-B's has ben ordered and are being affixed to official
          personnel folders as they are retrieved for routine personnel actions.II




     3)   Fonn 5-7 csrds- The Office of Personnel's file for Form S-7 cards are not maintained in a
          locked file cabinet within the Office. In order to more fully conform with regulations
          regarding the security of such records, and reduce the possibility of unauthorized access,
          the cards should be maintained in a locked cabinet.

          "Response: AGREE. We have asked for a locksmith's estimate to modify our current card
          containers. The alternative solution will be the purchase of new lockable cabinets."

     4)   Excessive compenslltory time-USITC's employees may exceed the maximum pay limitation
          if timesheets with excessive compensatory time, are submitted late to GSA. This situation
          may result since these timesheets are manually processed and the maximum pay limitation
          control is bypassed. All timesheets which are submined to OFB after the Monday following
          the pay period should be reviewed and approved by OFB to ensure the pay limitation is not
          exceeded. (Also see finding 5. )

           Response:- AGREE. All late and/or amended timesheets which include overtime and/or
          II


          compensatory time earned, are reviewed and approved by OFB prior to being submitted to
          GSA, to ensure that pay limitations are not exceeded.  II




UK                                                - 14 -

&W
     US INTERNATIONAL TRADE COMMISSION
     REVIEW OF PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES
     OTHER MATTERS AND SUGGESTIONS



     5)   Amended timsshtltlt pt'ocedul8S-USITC's timesheet procedures indicated that there is
          confusion relating to amended timesheet procedures. An administrative announcement
          should be published reminding employees and timekeepers that all timesheets must be
          submitted on Friday and, if an employee anticipates working on the weekend, that such time
          should only be indicated on an amended timesheet to be submitted on the following Monday.
          Estimates should not be used. (Also see finding 5.)

          "Response: AGREE. This is clearly stated in the Time, Attendance. and Payroll Services
          Handbook rUSITC Directive 2201.1 - V-3)' However, a reminder will be published, OFB is
          currently reviewing timesheets each pay period to assure estimates are not used, and ~i11
          also discuss this area at quarterly timekeepers meetings. tr

     6)   Overtime justifiClltions- USITC should consider the extent to which overtime justifications
          are necessary. One office justifies overtime with various general explanations. Overtime
          approvals for this office consist of a blanket form with a standard explanation of the need
          for overtime. A second office appears to submit overtime forms without any justification.
          fAlso see finding 5.)

          "Response: AGREE. USITC Directive 4304. 1 on overtime and compensatory time will be
          reviewed and revised as required."

     7)   FI7es for terminated employses- Two instances were noted in which the OPF for a
          terminated employee had not been transferred to the National Personnel Records Center
          (NPRC) within the required 30 to 90 days after separation. PN staff should consider
          reviewing their OPF files to ensure files for terminated employees are transferred to NPRC
          on a timely basis.

          "Response: AGREE. The two personnel assistants have been enrolled in a course on
          Records Retirement, after which they will construct a schedule for preparing and disposing
          of any pending files."




UK                                               - 15 -
&W
                                                                Appendix


                                                     AD-Q-630




UNITED STATES INTERNATIONAL TRADE COrvHvlISSIOI\J

                    WASHINGTON. DC 20436




August 30, 1993


MEMORANDUM


TO:          Inspector General                        (   t:)   ~

FROM:        Director, Office of    Administrati~~~
SUBJECT:     Draft Report, nReview of USITC's - Personnel-
             Payroll Functions and Activities"

As requested by your memorandum dated July 29, 1993,
(IG-Q-043), submitted herewith is the Office of
Administration's response to the subject draft audit
report. In accordance with Section 11 of the USITC
Directive 1701, the Commissioners have had an opportunity
to comment on the response and the Chairman has approved
it (see attached memorandum). *

The attached response includes the actions to be taken and
the target completion dates.

Please call me at 205-3131 or Bill Stuchbery at 205-3135
if you have any questions.


ATTACHMENTS

cc:     Director, Office of Personnel
        Director, Office of Finance and Budget


                    Note:   Memorandum not included in audit report.
      ADMINISTRATION'S RESPONSE TO THE DRAFT AUDIT REPORT
REVIEW OF USITC'S - PERSONNEL-PAYROLL FUNCTIONS AND ACTIVITIES



 RECOMMENDATION:

 1. Personnel Management Specialists and their assistants
    should have l~ited supplemental responsibilities.

     We recommend that USITC ~lement procedures which
     provide for an adequate segregation of duties for those
     occasions when personnel management specialist is
     Acting Director or an alternate t~ekeeper.

 RESPONSE:     AGREE

 This recommendation will be implemented by issuance of a
 "delegation of authority· memo to staff which will address
 the segregation of duties for those occasions when
 personnel management specialist is Acting Director or an
 alternate t~ekeeper.

 TARGET COMPLETION DATE:   September 30, 1993


 RECOMMENDATION:

 2. OFB staff should periodically test compliance with time
    and attendance policies.

     We recommend OFB consistently perfo~ internal testing
     procedures of T&A records in conjunction with quarterly
     timekeepers meetings to ensure records are in
     compliance with policies and procedures.

     Alternatively, we believe USITC may improve compliance
     by providing a general checklist for problem areas
     which should be reviewed by timekeepers before time
     sheets are submitted to OFB.

 RESPONSE:   AGREE

 OFB will provide a general checklist for timekeepers to
 use as they complete biweekly timesheets. OFB will
 continually review and revise the Review of Annual
 Attendance Record fo~, completed during timekeeper
 reviews, to include new problem areas. In addition, as
 time pe~its, OFB will increase timekeeper reviews from
 once to twice annually. OFB will also review all problem
 areas during quarterly timekeeper meetings.

 TARGET COMPLETION DATE:   December 31, 1993
                                                                    ./
                                                               ;'




RECOHHENDATION:

3.   T~ekeepers should not have direct access to GSA
     National Payroll Center personnel.

     USITC should discuss this situation with both the
     t~ekeepers and GSA and tmplement enhanced procedures
     to ensure that GSA does not process any payroll
     adjustments without the consent of specific individuals
     at OPB.

RESPONSE:   AGREE

OFB discussed this situation with GSA and in order not to
cause a possible delay in a salary payment, GSA prefers
not to he limited to wham they can talk to in order to
clear up a current payroll processing problem. However,
OFB has implemented procedures with GSA where GSA will not
process payroll adjustments without OFB (or the Office of
Personnel where appropriate> approval. These procedures
will be reviewed and enhanced as required, and discussed
during quarterly t~ekeeper meetings.

TARGET CCMPLETXON DATE:   December 31, 1993


RECOHHENDATION:

4.   T~eepers    who do not meet the exception criteria
     should not maintain their own t~e and attendance
     records.

     A1ternate t~ekeepers should be used to maintain the
     t~e and attendance records of the designated
     t~ekeeper.   In the event that the alternate timekeeper
     is absent, the designated timekeeper can maintain
     his/her own t~e and attendance records during that
     absence.

RESPONSE:   AGREE

OPB will include reminders in this area on the general
checklist for t~ekeepers and in the Review of Annual
Attendance Record fo~, and will also include it as a
topic at all quarterly t~ekeeper meetings. The
t~ekeepers who were improperly keeping their own t~e are
now authorized or are no longer doing it.

TARGET COMPLETION DATE:    December 31, 1993


RECOHHENDATION:
s.   OPS staff should periodically test compliance with
     compensatory ttme policies and administration should
     clarify the existing policy directive.

     We recommend that the recommendations for finding 2
     should be extended to compensa tory time.

     In addition, USITC should amend USITC Directive 4304.1
     11a. to clarify the definition of properly scheduled
     use or lose l annual leave. The Directive currently
     reads:

     "Earned compensatory t~e must be used before annual
     leave is used, with one exception: Iproperly scheduled
     use or lose l annual leave must be used prior to earned
     compensatory time".

     We found that the interpretation of when 'use or lose l
     annual leave actually occurs varied within USITC. In
     our testing, we interpreted Iproperly scheduled use or
     lose l annual leave to only apply to the last three pay
     periods of the year. This definition should be
     explicitly stated in the Directive.


RESPONSE:   AGREE

OPB will provide a general checklist for timekeepers to
use as they complete biweekly timesheets and continually
review and revise the Review of Annual Attendance Record
fo~ to include new problem areas. OPS will also review
all problem areas during quarterly timekeeper meetings.
USITC Directive 4304.1 on Overtime and Compensatory time
will be reviewed and revised as required.

TARGET COMPLETION DATE:    December 31, 1993


                OTHER MATTERS AND SUGGESTIONS

1. The Office of Personnel is currently in the process of
   establishing a fo~l personnel management evaluation
   system for perfo~ing internal reviews of personnel
   policies and procedures. Although lack of guidance
   from the u.s. Office of Personnel Management has
   apparently delayed the development of this system, we
   believe USITC should continue their effort and begin
   tmplementation as soon as possible.

RESPONSE:      AGREE

The Office of Personnel is continuing to develop
evaluation criteria and expects to complete one fo~l
review by the end of the year.

TARGET COMPLETION DATE:   December 30, 1993


2.   15 of 49 official personnel folders tested did not have
     a Privacy Act Notice, apparently due to the age of the
     folder. p~ Supplement 293-31 states that offices
     should "affix to the front panel of each folder (SF 66)
     printed before January 1981 in their custody and to
     each folder received fram the NPRC, a Standard Po~ 66-
     B, Official Personnel Folder Safeguarding Provisions
     Label. The label summarizes requirements for
     protecting the privacy of the contents of folders and
     is to be used on all such OPP's.

RESPONSE:      AGREE

A stock of SF-66-B 's has been ordered and are being
affixed to official personnel folders as they are
retrieved for routine personnel actions.

TARGET COMPLETION DATE:   January 31, 1994


3. The Office of Personnel's file for Fo~ SF-7 cards are
   not maintained in a locked file cabinet within the
   Office. In order to confo~ with regulations regarding
   the security of such records, and reduce the
   possibility of unauthorized access, the cards should be
   maintained in a looked cabinet.

RESPONSE:      AGREE

We have asked for a locksmith's estimate to modify our
current card containers. The alternative solution will be
the purchase of new lockable cabinets.

TARGET COMPLETION DATE:   September 30, 1993


4. USITC's employees may exceed the maximum pay limitation
   if timesheets, with excessive compensatory t~e, are
   submitted late to GSA. This situation may result since
   these t~esheets are manually processed and the maximum
   pay l~itation control is bypassed. All timesheets
   which are submitted to OFB after the Monday following
   the pay period should be reviewed and approved by OFB
   to ensure the pay limitation is not exceeded.

RESPONSE:   AGREE

All late and/or amended t~esheets which include overtime
and/or compensatory time earned, are reviewed and approved
by OFB prior to being submitted to GSA, to ensure that pay
l~itations are not exceeded.

TARGET COMPLETION DATE:   Completed


s.   USITC's t~esheet procedures indicated that there is
     confusion relating to amended t~esheet procedures. An
     administrative announcement should be published
     reminding employees and t~ekeepers that all t~esheets
     must be submitted on Friday and, if an employee
     anticipates working on the weekend, that such time
     should only be indicated on an amended t~esheet to be
     submitted on the following Monday. Est~tes should
     not be used.

RESPONSE:   AGREE

This is clearly stated in the Time. Attendance. and
Payroll Services Handbook (USITC Directive 2201.1 - V-3).
However, a reminder will be published. OFB is currently
reviewing t~esheets each pay period to assure estimates
are not used, and will also discuss this area at quarterly
t~ekeepers meetings.


TARGET COMPLETION DATE:   December 31, 1993


6. USITC should consider the extent to which overtime
   justifications are necessary. Different offices
   justify overt~e with varying detailed explanations.
   For example, overt~e approvals for the General
   Counsel's office consist of a blanket for.m with a
   standard explanation of the need for overt~e.
RESPONSE:   AGREE

USITC Directive 4304.1 on Overtime and Compensatory time
will be reviewed and revised as required.

TARGET COMPLETION DATE:   December 31, 1993


7. Two instances were noted in which the OPF for a
   ter.minated employee had not been transferred to the
   National Personnel Records Center (NPRC) within the
   required 30 to 90 days after separation. PN staff
   should consider reviewing their OPF files to ensure
   files for ter.minated employees are transferred to NPRC
   on a t~ely basis.

RESPONSE:     AGREE
The two personnel assistants have been enrolled in a
course on Records Retirement, after which they will
construct a schedule for preparing and disposing of any
pending files.

TARGET COMPLETION DATE:   September 30, 1993
